No.

IN THE
SUPREME .COURT OF THE UNITED STATES

Jay Warren Arnold, Petitioner
vs.
BOBBY LUMPKIN, Respondent
PROOF OF SERVICE
I, Jay Warren Arnold, do swear that on this x

day of August,

2021, as required by Supreme Court Rule 29 I have served the enclosed
Motion For Leave To Proceed In Forma Pauperis and Petition For A Writ
Of Certiorari on counsel for the Respondent by depositing an envelope
containing the above documents in the TDCJ mailbox properly addressed
and with first-class postage prepaid.
The names and address for counsel of record for the Respondent are as
follows:

Office of the Texas Attorney General
Jessica Manojlovich
c/o Edward L. Marshall
P.0. Box 12548
Capitol Station
Austin, Tx. 78711

I declare under penalty of perjury that the foregoing is true and
correct.
Executed on August

, 2021.
r\Xh1

Arnold

RECEIVED
SEP - 8 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

